HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Colonnade Medical Center, Lauderdale Lakes, Florida, (A-04-96-01134),)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Colonnade Medical Center, Lauderdale Lakes,
Florida," (A-04-96-01134)
February 6, 1997
Complete
Text of Report is available in PDF format (1.22 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from November 1, 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $385,338 in charges reported for the 30 sample beneficiaries in our study.
This amount comprises $195,247 related to physical therapy services; $79,330 in occupational therapy services; $15,780
in speech therapy services; and $37,766 in respiratory therapy services, that were considered not to meet Medicare coverage
requirements; $51,095 in undocumented services; and $6,120 in inappropriate equipment charges. Therefore, we are recommending
an adjustment of the above charges and that the fiscal intermediary conduct a focused review of all rehab therapies since
the period of our review in order to recoup overpayments made to this skilled nursing facility and to implement corrective
action by the facility.